No.
In The

Supreme Court of tlie fHnttefc States!
National Football League, etal. ,
Petitioners,
v.
Ninth Inning, Inc., etal.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,960 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 7, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

